Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL




    ILLINOIS’ FEDERAL MEDICAID

        WITHDRAWALS WERE 

         SUPPORTED BY NET

     EXPENDITURES FOR FISCAL

     YEARS 2010 THROUGH 2012




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler

                                               Regional Inspector General

                                                   for Audit Services


                                                       August 2014
                                                      A-06-13-00032
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                      EXECUTIVE SUMMARY


  For Federal fiscal years 2010 through 2012, the Federal funds that Illinois obtained were
  supported by net expenditures. However, Illinois overdrew Medicaid funds for most
  quarters and could not immediately pay back overdrawn funds.


WHY WE DID THIS REVIEW

To fund their Medicaid programs, States receive Federal grant awards that pay for the Federal
share of their Medicaid medical and administrative expenditures. An external audit of the
Federal fiscal year (FY) 2011 financial statements for the Centers for Medicare & Medicaid
Services (CMS) determined that State Medicaid programs owed $1.3 billion to the Federal
Government. This review is part of a series related to States’ Federal Medicaid withdrawals.

The objective of this review was to determine whether Federal Medicaid funds that the Illinois
Department of Healthcare and Family Services (State agency) obtained for FYs 2010 through
2012 were supported by net expenditures.

BACKGROUND

Before each quarter, States estimate their Medicaid expenditures. CMS uses the estimates to
determine the initial grant awards, which are the Federal fund amounts that will be available to
States during the quarter. If a State underestimates the amount of funds it will need during a
quarter, it may request additional funds through a supplemental grant award.

The Payment Management System (PMS) is used to account for Medicaid financial activity.
Throughout a quarter, States withdraw Federal funds from the PMS accounts to pay the Federal
share of Medicaid expenditures. After the end of each quarter, States report expenditures and the
associated Federal share on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report). CMS calculates a finalized grant award amount for each
State by comparing the initial and supplemental grant awards for the quarter to both the
expenditures reported on the CMS-64 report and adjustments to those expenditures that were not
included on the CMS-64 report.

After each quarter, the State agency performs a reconciliation to compare the total Federal funds
withdrawn with the Federal share of net expenditures. If total Federal funds withdrawn are less
than expenditures, the State agency increases future withdrawals. Conversely, if total Federal
funds withdrawn exceed expenditures, the State agency reduces future withdrawals by the
difference.

WHAT WE FOUND

The Federal funds totaling $23,303,834,479 that the State agency obtained for FYs 2010 through
2012 were supported by net expenditures. However, the State agency overdrew Medicaid funds
from its main Medicaid PMS accounts for most quarters because its withdrawal methodology


Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                              i
was imprecise. The State agency could not immediately repay the overdrawn amounts because
the funds were used for purposes other than Medicaid. Rather, the State agency repaid the
overdrawn amounts 2 to 6 months later. As a result, the Federal Government could have lost as
much as $792,000 in interest.

Additionally, the State agency did not withdraw Federal funds from the appropriate PMS
accounts because of a faulty procedure and other misclassifications. The withdrawals caused the
balances in the accounts to be wrong, so the State agency had to transfer large amounts of
Federal funds to correct those balances.

WHAT WE RECOMMEND

We recommend that the State agency:

    •	 adjust its withdrawal methodology to ensure that Medicaid funds are withdrawn only for
       the Federal share of actual Medicaid expenditures and

    •	 ensure that it withdraws funds from the appropriate PMS account.

STATE AGENCY COMMENTS

The State agency concurred with our recommendations.




Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                          ii
                                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................................................1


           Why We Did This Review ................................................................................................1


           Objective ...........................................................................................................................1


           Background .......................................................................................................................1

                 Medicaid Program.................................................................................................1

                 Medicaid Funding Process ....................................................................................1

                 The State Agency’s Method for Withdrawing Federal Medicaid Funds ..............2


           How We Conducted This Review.....................................................................................2


FINDINGS ....................................................................................................................................3


           The State Agency Consistently Overdrew Its Net Expenditures ......................................3


          The State Agency Did Not Withdraw Funds From the Appropriate Accounts.................5


RECOMMENDATIONS ..............................................................................................................5


STATE AGENCY COMMENTS .................................................................................................6


APPENDIXES


           A: AUDIT SCOPE AND METHODOLOGY .................................................................7


           B: STATE AGENCY COMMENTS ...............................................................................9





Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                                                                           iii
                                              INTRODUCTION


WHY WE DID THIS REVIEW


To fund their Medicaid programs, States receive Federal grant awards that pay for the Federal
share of their Medicaid medical and administrative expenditures. Before Federal fiscal year
(FY) 2010, States had grant award accounts that combined the Medicaid funds from every year.
Consequently, yearly balances were not distinguished. Beginning in FY 2010, the Centers for
Medicare & Medicaid Services (CMS) implemented annualized accounts for grant awards that
had beginning and ending balances to improve the transparency of Medicaid funding. As a part
of the CMS Financial Report Fiscal Year 2011, an external audit of CMS’s financial statements
determined that State Medicaid programs owed $1.3 billion to the Federal Government. 1 This
review is part of a series related to States’ Federal Medicaid withdrawals.

OBJECTIVE

Our objective was to determine whether Federal Medicaid funds that the Illinois Department of
Healthcare and Family Services (State agency) obtained for FYs 2010 through 2012 were
supported by net expenditures.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. In Illinois, the State agency
administers the Medicaid program. Although the State agency has considerable flexibility in
designing and operating its Medicaid program, it must comply with applicable Federal
requirements. The Federal Government pays its share of a State’s Medicaid expenditures based
on the Federal medical assistance percentage (FMAP), which varies depending on the State’s
relative per capita income.

Medicaid Funding Process

Before each quarter, States estimate their Medicaid expenditures and report the estimates to CMS
on the quarterly Medicaid Program Budget Report (CMS-37 report). CMS uses the estimates to
determine the initial grant awards, which are the Federal fund amounts that will be available to
States during the quarter. If a State underestimates the amount of funds it will need during a
quarter, it may request additional funds by submitting a revised CMS-37 report. The resulting
increase in Federal funds is known as a supplemental grant award.

CMS provides the grant award amounts to the Division of Payment Management (DPM), a
division within the U.S. Department of Health and Human Services, which operates as CMS’s
1
    CMS, CMS Financial Report Fiscal Year 2011, Financial Section, Audit Reports, page 121.


Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                          1
fiscal intermediary. DPM uses the Payment Management System (PMS) to account for
Medicaid financial activity, such as recording grant award amounts and processing the States’
withdrawals. Beginning in FY 2010, CMS implemented annualized PMS accounts for the grant
awards. As a result, each State has PMS accounts for each FY rather than combining the funds
for multiple FYs.

Throughout a quarter, States withdraw Federal funds from the PMS accounts to pay the Federal
share of Medicaid expenditures. Within 30 days after the end of each quarter, States report to
CMS expenditures and the associated Federal share on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (CMS-64 report). The amounts that States
report must represent actual expenditures.

CMS calculates a finalized grant award amount for each State by comparing the initial and
supplemental grant awards for the quarter with expenditures reported on the CMS-64 report.
CMS also includes in its calculation adjustments to expenditures that were not included on the
CMS-64 report, such as interest due to CMS and expenditures that CMS disallowed. If a State’s
initial and supplemental grant awards are less than its expenditures, CMS increases the State’s
grant award. Conversely, if a State’s initial and supplemental grant awards exceed its
expenditures, CMS decreases the State’s grant award by the difference.

The State Agency’s Method for Withdrawing Federal Medicaid Funds

The State agency gathered actual and estimated expenditures for all of its programs, including
Medicaid, the Children’s Health Insurance Program, and solely State-funded programs. The
State agency then withdrew funds for the actual and estimated expenditures from its main
Medicaid PMS account. In an attempt to compensate for withdrawing for non-Medicaid
expenditures, the State agency used lower estimated Federal share percentages, which ranged
from 47.10 percent to 49.16 percent, rather than its actual FMAPs of 50 percent to 50.20 percent.
The State agency deposited most withdrawn Federal Medicaid funds directly into the State’s
General Revenue Fund (GRF), which also included funds for such things as transportation,
education, and pensions.

After each quarter, the State agency performed a reconciliation to compare the total Federal
Medicaid funds withdrawn with the Federal share of net expenditures and identify any
differences. If total Federal funds withdrawn were less than expenditures, the State agency
increased future withdrawals to obtain the difference. Conversely, if total Federal funds
withdrawn exceeded expenditures, the State agency reduced future withdrawals to return the
difference.

HOW WE CONDUCTED THIS REVIEW

The State agency obtained $23,303,834,479 in Federal Medicaid funds for FYs 2010 through
2012 (i.e., October 1, 2009, through September 30, 2012). We compared the amounts that the
State agency withdrew with the final amounts that CMS awarded for expenditures and reviewed
the State agency’s quarterly reconciliations.




Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                           2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                FINDINGS

The Federal funds totaling $23,303,834,479 that the State agency obtained for FYs 2010 through
2012 were supported by net expenditures. However, the State agency overdrew Medicaid funds
from its main Medicaid PMS accounts for most quarters because its withdrawal methodology
was imprecise. The State agency could not immediately repay the overdrawn amounts because
the funds were used for purposes other than Medicaid. Rather, the State agency repaid the
overdrawn amounts 2 to 6 months later. As a result, the Federal Government could have lost as
much as $792,000 in interest.

Additionally, the State agency did not withdraw Federal funds from the appropriate PMS
accounts because of a faulty procedure and other misclassifications. The withdrawals caused the
balances in the accounts to be wrong, so the State agency had to transfer large amounts of
Federal funds to correct those balances.

THE STATE AGENCY CONSISTENTLY
OVERDREW ITS NET EXPENDITURES

Sections 1903(a)(1) and (a)(7) of the Social Security Act make Federal financial participation
available only for the total amount expended as medical assistance and for the proper and
efficient administration of a CMS-approved State plan. Additionally, 42 CFR § 430.30(d)(3)
authorizes the State to withdraw Federal funds as needed to pay the Federal share of Medicaid
disbursements.

Also, a State must minimize the time that elapses between the transfer of funds from the United
States Treasury and the State’s payout of funds for Federal assistance program purposes and
limit the amount of funds transferred to the minimum required to meet a State’s actual and
immediate cash needs (31 CFR §§ 205.11(a) and (b)).

The State agency consistently withdrew more Medicaid funds than were supported by net
expenditures from its main Medicaid PMS accounts. During the 3 years we reviewed, the State
agency’s withdrawals exceeded its expenditures by an average of $60 million a quarter, ranging
from an underdrawn amount in one quarter of $28.6 million to an overdrawn amount in another
quarter of $193.7 million. The following table shows the underdrawn or overdrawn amounts by
quarter.




Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                            3
                             Table: Underdrawn or Overdrawn Amounts

                                                  Underdrawn
                                                 or Overdrawn
                                      FY Quarter    Amount 2
                                     2010  1st     $16,094,144
                                     2010 2nd      (28,648,274)
                                     2010  3rd     (12,730,470)
                                     2010  4th       4,235,817
                                     2011  1st      77,037,715
                                     2011 2nd       79,310,273
                                     2011  3rd      (6,755,407)
                                     2011  4th     193,748,785
                                     2012  1st     151,936,696
                                     2012 2nd       85,006,236
                                     2012  3rd      13,254,015
                                     2012  4th    $146,909,486

The overdraws occurred because of the State agency’s imprecise withdrawal methodology,
which included withdrawing Medicaid funds for non-Medicaid expenditures, calculating the
Federal share to be withdrawn on the basis of estimated Federal share percentages, and
estimating some Medicaid expenditures.

The State agency recognized that it had overdrawn funds in its quarterly reconciliations.
However, the State agency could not repay the overdrawn amounts immediately because the
overdrawn funds were no longer in the GRF. According to a State agency official, the Illinois
Comptroller spends all funds in the GRF without regard to matching revenues to expenditures.
Therefore, the Illinois Comptroller used the overdrawn Medicaid funds to pay non-Medicaid
expenditures because funds in the GRF were commingled.

Consequently, the State agency repaid the overdrawn amounts by decreasing Medicaid
withdrawals from 2 to 6 months after the overdraws occurred. However, the State agency
calculated the withdrawals that it decreased using the same imprecise withdrawal methodology.
Therefore, the State agency continued to overdraw, while attempting to repay previously
overdrawn funds. This created a perpetual “treadmill effect” because the State agency was
usually in an overdrawn condition.

Because the funds were used for purposes other than Medicaid, the Federal Government lost the
use of overdrawn funds. Additionally, the State agency was not required to pay interest on the




2
    Underdrawn amounts are shown in parentheses.



Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                           4
funds that it held for extended periods of time. For example purposes, we calculated the possible
interest the Federal Government lost, which could have been as much as $792,000. 3

THE STATE AGENCY DID NOT WITHDRAW FUNDS
FROM THE APPROPRIATE ACCOUNTS

According to a CMS program official, States should withdraw funds from or return funds to the
appropriate PMS account (i.e., the account for the FY in which the associated expenditures were
reported).

The State agency did not always withdraw funds from the appropriate PMS accounts because of
a faulty procedure and other misclassifications. On multiple occasions, the State agency
withdrew Federal funds from 1 year’s account to pay for a different year’s expenditures. The
following are descriptions of the misclassifications:

    •	 The State agency adjusted for a quarter’s reconciliation difference in a later quarter, so
       the adjustment for the last quarter in a FY was made using funds from the following FY’s
       account.

    •	 After the end of each FY, the State agency continued to withdraw funds from the
       previous year’s accounts for expenditures reported in the new FY. CMS had not
       finalized the funds in the previous year’s accounts, so the funds were still available.

    •	 The State agency corrected errors made in its quarterly reconciliations when it discovered
       them. Many times, the discovery occurred after the close of the FY, and the State agency
       made those corrections in the following FY’s account.

Although the withdrawals caused the account balances to be wrong, they did not result in
monetary effects because the expenditures were simply misclassified. However, to correct those
balances, the State agency had to transfer large amounts of Federal funds among its PMS
accounts.

                                          RECOMMENDATIONS

We recommend that the State agency:

    •	 adjust its withdrawal methodology to ensure that Medicaid funds are withdrawn only for
       the Federal share of actual Medicaid expenditures and

    •	 ensure that it withdraws funds from the appropriate PMS account.



3
  We used annualized interest rates published by the U.S. Department of the Treasury (available online at
www.fms.treas.gov/cmia/interest-13.html; accessed on April 25, 2014). Those rates ranged from 0.05 percent to
0.12 percent. The interest amount reflects only the possible interest lost because of the State agency’s delayed
return of overdrawn funds in its main Medicaid PMS accounts.


Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                                             5
STATE AGENCY COMMENTS

The State agency concurred with our recommendations and described corrective actions that it
had taken or planned to take. The State agency’s comments appear in their entirety as Appendix
B.




Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                       6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The State agency obtained $23,303,834,479 in Federal Medicaid funds for FYs 2010 through
2012 (i.e., October 1, 2009, through September 30, 2012).
We limited our review of supporting documentation to records supporting the State agency’s
withdrawing of Federal funds; we did not evaluate the accuracy of the expenditures that the State
agency reported on its CMS-64 report. Our objective did not require a review of the State
agency’s overall internal control structure. Therefore, we limited our internal control review to
the State agency’s procedures for withdrawing Federal Medicaid funds.
We conducted fieldwork at the State agency’s offices in Springfield, Illinois.

METHODOLOGY
To accomplish our objective, we:

    •	 reviewed applicable Federal laws and regulations;

    •	 held discussions with CMS officials to gain an understanding of CMS guidance furnished
       to the State agency concerning the withdrawing of Federal funds;

    •	 interviewed State agency officials to obtain an understanding of the State agency’s
       policies and procedures for withdrawing Federal funds;

    •	 analyzed the State agency’s procedures for conducting quarterly reconciliations and
       reviewed those reconciliations;

    •	 obtained and analyzed the PMS account detail, including grant award amounts and actual
       withdrawals that the State agency made;

    •	 compared the grant award amounts in the PMS for each quarter with Medicaid grant
       award documents to ensure the accuracy of the PMS data;

    •	 traced the amounts that CMS used to calculate the final grant award amounts for each
       quarter to the CMS-64 report;

    •	 compared the State agency’s documentation supporting its Federal Medicaid fund 

       withdrawals to the withdrawals in the PMS;


    •	 calculated the possible interest lost to the Federal Government; and

    •	 discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                          7
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                         8
                                APPENDIX B: STATE AGENCY COMMENTS



                        IlliNOIS D"AlfMlltl O•




     fHFS              Healthcare and
                       Family Services
                                                                                             Pat Quinn, Governor
                                                                                             Julie Hamos, Director


      201 South Grand Avenue East                                                            Telephone: (217) 782-1200
      Springfield, Illinois 62763-0002                                                       TTY: (800) 526-5812




                                                                                             July 30, 2014



        Department of Health and Htnnan Servioes
        Office ofh1Spector General, Office of Audit Se~vices, Region VI
        Attn: Patricia Wheeler, Regional Inspector General for Audit Services
        1100 Conunerce Street, Room 632
        Dallas, Texas 75242

        Re: Draft Audit Report A-06-13-00032

        Dear Ms. Wheeler:

        11umk you for providing the opporttntity to cormne11t on ymu· draft audit report entitled ''Illinois' Federal
        Medicaid Withdrawals Were Supported by Net Expenditures for Fiscal Years 2010 through 2012."

        'The D::parl!neiit concurs with the reconunei1dation. HFS is cturently analyzing and reviewing our draw processes
        for FFY 15 to reduce the arnotu1ts of ove~·draws and tmderdraws of federal Medicaid funds. TI1e migration of a
        larger peroo1tage of Medicaid recipients to managed care should allow for more consiste11t payment cycles and
        bette~· e~timates of the fede~·al share of payment~. [)tvelopment of a new MMIS that will pro\ride system generated
        federal share calculations is on-going. TI1e el\'{lected date of impleme11tation of the new MMrs is the fomth qumter
        of calendar 2017.

        HFS modified our qurute~·ly reconciliation prooess starting in FFY13 which should reduce the issues that led to the
        incorrect PMS accotmts being used.

        We appreciate the w01k completed by your audit team. If you have atly questions or c01mnents about our
        response to the audit, please contact Amy Lyons, External Audit Liaison, at (217) 557-0576 or through e~nail at
        amv.lvons@illinois.gov.

        Sincerely,



        Julie Hamos
        Director




      E-mail: hfs.webmaster@illinois.gov                                                    Internet: http:I/WVYW.hfs.illinois.gov/




Illinois’ Federal Medicaid Withdrawals (A-06-13-00032)                                                                                9
